                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                          Incurred-Cost Audit of Grants Awarded to the
                            Maine Commission for Community Service




                                      Audit Report No. 03-06
                                         March 28,2003



                                      Financial Schedules and
                                   Independent Auditors' Report
                                          For the Period
                            October 1, 1998, through September 30,2001



                                            Prepared by:


                                    Leon Snead & Company, P.C.
                                  4 16 Hungerford Drive, Suite 400
                                        Rockville, MD 20850


                                    Office of Inspector General
                                 1201 New York Avenue, Suite 830
                                     Washington, D.C. 20525


This report was issued to Corporation management on July 24, 2003. Under laws and regulations
governing audit follow-up, the Corporation must make final management decisions on reported findings
and recommendations no later than January 24, 2004 and complete its corrective actions by July 24,
2004. Consequently, the reported findings do not necessarily represent the final resolution of issues
presented.
                                                                                           CORPORATION
                                  Office of Inspector General                              FOR NATIONAL
                        Corporation for National and Community Service
                                      Audit Report 03-06

                          Incurred-Cost Audit of Grants Awarded to the
                           Maine Commission for Community Service

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act of 1993, as amended, awards grants and cooperative agreements to
State commissions, nonprofit entities, tribes and territories to assist in the creation of full- and
part-time national and community service programs. Currently, under the Act's requirements,
the Corporation awards approximately three-fourths of its AmeriCorps Staternational funds to
State commissions. The State commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Leon Snead & Company, P.C. to audit
Corporation grants to the Maine Commission for Community Service for AmeriCorps, Program
Development and Training, Promise Fellows, Disability, Make a Difference Day, America Reads
and Administrative costs from October 1, 1998, through September 30, 2001. The audit's
objectives were to determine whether: (1) the costs incurred were allowable, allocable, and
reasonable; (2) the grantee's system of internal control was adequate to account for and report
grant expenditures accurately; and (3) the grantee was in compliance with applicable laws and
regulations.

The Board had total claimed costs of $5,294,473, of which the auditors questioned $106,743 of
drawdowns in excess of expenditures, and $363,759 because the claims lacked supporting
documentation or the costs were ineligible. The total costs questioned of $470,502 are
approximately nine (9) percent of the total claimed costs. Costs questioned for allowability
represent amounts for which documentation shows that recorded costs were expended in
violation of regulations, or specific award conditions, or costs that require interpretation of
allowability. Costs questioned for support require additional documentation to substantiate that
the cost was incurred and is allowable. The auditors concluded that the Consolidated Schedule
of Award Costs present fairly the costs claimed by the Commission, except for the questioned
and unsupported costs identified in the report, and the effects of any adjustments.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditor's work papers disclosed no instances where
Leon Snead & Company, P.C. did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided the Commission and the Corporation a draft of this
report for their review and comment. Their responses are included in their entirety as
Appendices A and B, respectively.

                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20Fi25
                                                     Table of Contents

                                                                                                                             Page

Results in Brief ....................................................................................................................
                                                                                                                                1
Background ..........................................................................................................................4
Objectives of Audit ..............................................................................................................4
Scope of Audit .....................................................................................................................
                                                                                                                             4
Independent Auditor' s Report ..............................................................................................
                                                                                                                       6
Independent Auditor's Report on Compliance and Internal Controls ................................. 8
Compliance Findings ...........................................................................................................8
Internal Control Findings ...................................................................................................
                                                                                                                       11
Follow-up on Pre-Audit Survey ........................................................................................
                                                                                                                  21
Consolidated Schedule of Award Costs .............................................................................
                                                                                                               23
Exhibit A - Schedule of Award Costs (94ASCME020)....................................................26
Exhibit B - Schedule of Award Costs (00ASCME020).................................................... 27
Exhibit C - Schedule of Award Costs (00ASFME020) ....................................................
                                                                                                 28
Exhibit D - Schedule of Award Costs (99ASHME020) ................................................... 29
Exhibit E - Schedule of Award Costs (94SCSME021).....................................................
                                                                                                 30
Exhibit F      .  Schedule of Award Costs (01SCSME021) ..................................................... 32
Exhibit G .Schedule of Award Costs (95PDSME021) .................................................... 33
Exhibit H       .  Schedule of Award Costs (97DSCME021)....................................................
                                                                                                        35


Responses
     Appendix A .Commission's Response to the Report
     Appendix B         .  Corporation's Response to the Report



This report is intended for the information and use of the Office of Inspector General.
management of the Corporation for National and Community Service. the Maine
Commission for Community Service. its subrecipients. and the United States Congress.
This report is not intended to be. and should not be. used by anyone other than the
specified parties .
                                                                                                  Certified Public Accuuntunts
LEON SNEAD                                                                                        G. Murzager?rerzt ~ o t ~ s u ~ t a u t s
& COMPANY, PC.
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
Ieonsnead.cornpanypc@erols.com




               Inspector General
               Corporation for National and Community Service
               Washington, D.C. 20525


               This report is issued under an engagement to audit the costs incurred by the Maine
               Commission for Community Service (Commission), on Corporation for National and
               Community Service grant fimds from October 1, 1998, through September 30, 2001. The
               report addresses the costs questioned as a result of the audit; instances of noncompliance
               with laws, regulations and award agreements; and internal control weaknesses disclosed
               in the systems of internal control at the Commission.

               RESULTS IN BRIEF

                As a result of our audit, we question costs totaling $470,502 (approximately 9 percent) of
                the total of $5,294,473 claimed by the Commission. Of the $470,502 in questioned costs,
                $106,743 is questioned because of excessive drawdowns of grant funds. The remaining
                $363,759 is questioned because the claims were unsupported or the costs were ineligible.
                Our audit identified several weaknesses in the areas of internal controls and compliance.
                Details related to these and other noncompliance findings appear in the Independent
                Auditor's Report on Compliance and Internal Controls. These weaknesses are
                summarized below.

                Compliance Weaknesses

                         The Commission did not submit Financial Status Reports (FSR) for
                         Administrative and Program Development and Training (PDAT) grants on a
                         timely basis.
                         Subgrantees' FSRs and quarterly status reports were not submitted on a timely
                         basis.
                         A subgrantee paid living allowances to ArneriCorps members in excess of
                         authorized amounts.
                         A subgrantee did not effectively monitor the quantity and quality of the
                         documentation submitted to support in-kind contributions.
Internal Control Weaknesses

       The Commission did not reconcile the FSRs with actual expenditures and
       drawdowns.
       The Commission did not have adequate controls to ensure that matching costs
       were properly monitored, fully documented and accurately reported.
       The Commission did not credit the PDAT grant for reimbursements received from
       others for expenses originally charged to the PDAT grant.
       The Commission did not always maintain supporting documentation for amounts
       charged against grants, nor did the Commission always allocate overhead or
       charge direct costs correctly.
       The Commission paid subgrantees for ArneriCorps costs after the end of the grant
       period and paid costs not supported by documentation.
       Subgrantees did not always maintain documentation as required by AmeriCorps
       provisions.
       Subgrantees did not always monitor amounts charged as administrative costs to
       prevent overbilling.

Summary of Questioned Costs

AmeriCorps

       Administrative Costs Questioned - Exceeded Maximum for Year              $1,992
       Costs Incurred After Grant Period                                         2,797
       Member Living Allowance - Overpayment                                       590
       Member Living Allowance - Lack of Eligibility Documentation                 392
Total Costs Questioned - AmeriCorps                                             $5,771

Americor~-
         s Governor's Initiative

       Unsupported Costs
Total Costs Questioned - Governor's Initiative

Administrative

       Difference Between FSRs and General Ledger
       Excess Drawdowns
       Ineligible Costs for Reimbursement
       Unsupported Costs for Match
       Questioned Costs Due to Match Shortfall
Total Costs Questioned - Administrative
Program Development and Training (PDAT)

       Difference Between FSRs and General Ledger
       Excess Drawdowns
       Ineligible Costs for Reimbursement
       Unsupported Expenditures
       Unsupported Costs
Total Costs Questioned - PDAT

Disability

       Difference Between FSRs and General Ledger
       Drawdowns less than Booked Expenditures
       Ineligible Costs for Reimbursement
Total Costs Questioned - Disability


Total Costs Questioned - All Grants
BACKGROUND

The Corporation for National and Community Service, pursuant to the authority of the
National and Community Service Act, as amended, awards grants and cooperative
agreements to State commissions, and other entities to assist in the creation of full and
part-time national and community service programs. The Maine Commission for
Community Service was established by Executive Order in 1994 and by statute in 1995.
Its mission is to foster community service and volunteerism to meet human and
environmental needs in the State of Maine. The 26-member Commission is the State's
lead partner with the Corporation for National and Community Service. The Commission
is located in Augusta, Maine, and operates as a division of the Maine State Planning
Office. The Management and Support unit of the State Planning Office provides
financial support to the Commission. The State Planning Office utilizes the Maine
Financial and Administrative Information System to provide all accounting and financial
reporting for the Commission.

OBJECTIVES

The objectives of the audit were to determine if: (1) the costs incurred were allowable,
allocable, and reasonable; (2) the grantee's system of internal control was adequate to
account for and report grant expenditures accurately; and (3) the grantee was in
compliance with applicable laws and regulations.

SCOPE

During the period of our audit, the Commission received approximately $8.9 million
from twelve grant awards. About $7.4 million of this amount was distributed to
subgrantees and the claimed amount is about $5.3 million. The subgrantees were State
entities and non-profit organizations. A brief synopsis of programs and functions funded
by the grants are as follows:

Programs                                   Grant Amount                  Claimed Costs
94ASCME020-AmeriCorps                         $3,486,802                     $2,203,877
00ASCME020-AmeriCorps                          1,837,285                        738,666
00ASFME020-ArneriCorps                           980,899                        358,120

99ASHME020-ArneriCorps-                            90 1,492
             Governor's Initiative
94SCSME021-Administrative                          343,089
01SCSME021-Administrative                          20 1,249

95PDSME02 1-Program Development
             & Training                            553,000
97DSCME02 1-Disability                              70,448
98APSME020-Promise Fellows                         125,000
99APSME020-Promise Fellows                        243,741                      210,836

98ARCME020-America Reads                          148,750                       142,203

99MDDME007-Make a Difference Day

    Total

The audit covered costs claimed during the period October 1, 1998, through September
30, 2001. The audit coverage for grant 99APSME020 was limited to determining
whether the employees hired by the grantee met the employment eligibility requirements
and whether their work performance had been properly documented. The audit coverage
on grant 97DSCME021 was limited to reconciling costs reported on Financial Status
Reports to general ledger amounts and drawdowns. Our audit also followed up on the
findings and recommendations in the Pre-Audit Survey Report of the Commission, dated
October 27,2000 (Report Number 01-19).

We performed the audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included obtaining an understanding
of the financial management system, testing the operating effectiveness of the financial
management system and examining, on a test basis, evidence supporting the costs
claimed in Schedule 1.
                                                                                               Certified Public Accountnnts
LEON SNEAD                                                                                     6 Manngenlent Consultarzts
& COMPANY, PC.
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.companypc@)erols.com




              Inspector General
              Corporation for National and Community Service
              Washington, D.C. 20525


                                     INDEPENDENT AUDITOR'S REPORT


              Leon Snead & Company, P. C. has completed an audit of the costs incurred by the Maine
              Commission for Community Service against grant funds awarded by the Corporation for
              National and Community Service (Corporation). The audit was performed at the request
              of the Corporation for National and Community Service, Office of Inspector General.

              The objectives of the audit were to determine if: (1) the costs incurred by the Commission
              and subgrantees were allowable, allocable and reasonable; (2) the Commission's system
              of internal control was adequate to account for and report grantee expenditures
              accurately; and (3) the grantee was in compliance with grant requirements, applicable
              laws and regulations.

               The audit identified $470,502 in questioned costs, which are presented in Schedule 1, and
               noted areas where improvements are needed. The financial management system's
               internal controls needs to be improved to ensure that amounts recorded in the general
               ledger are accurate, Financial Status Reports are accurate and can be reconciled to the
               general ledger, financial reporting is accomplished more timely, and fund drawdowns are
               properly supported. Also, better documentation is needed to support matching
               contributions.

               We conducted our audit in accordance with Government Auditing Standards, issued by
               the Comptroller General of the United States. In accordance with Government Auditing
               Standards, we have issued a report, dated March 28, 2003, on our consideration of the
               Commission's internal controls and on its compliance with applicable laws and
               regulations.
An exit conference to discuss the findings and recommendations included in the report
was held with officials of the Commission on April 24, 2003. The Commission and
Corporation responses are included as appendices A and B to this report. The
Commission provided specific comments on the compliance and internal control report
findings. The Corporation stated that it will respond to all findings and recommendations
when the audit report is issued, and it has reviewed the findings in detail.

Leon Snead & Company, P. C. appreciate the cooperation and assistance received during
the audit from both the Commission and subgrantee personnel.



Rockville, Maryland
March 28,2003
                                                                                                Certified P u h l ~ cAccountnnts
LEON SNEAD                                                                                       G. Management Consultnnts
& COMPANY, PC.
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
Ieonsnead.cornpanypc@erols.com




               Inspector General
               Corporation for National and Community Service
               Washington, D.C. 20525


                 INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND INTERNAL
                                         CONTROLS

               We have audited the costs claimed by the Maine Commission for Community Service
               (Commission) under grant awards issued by the Corporation for National and Community
               Service (Corporation). The grant award numbers are listed below and the costs claimed
               are presented in Schedule 1

               Program                  Award Number           Award Period         Audit Period
               AmeriCorps               94ASCME020          08115/97 to 12131/00 10/01/98 to 12131/00
               AmeriCorps               00ASCME020          09/01/00 to 08131/03 09/01/00 to 09/30/01
               AmeriCorps               00ASFME020          09/01/00 to 08131/03 09/01/00 to 09/30/01
               AmeriCorps-
                Governor's Initiative   99ASHME020
               Administrative           94SCSME02 1
               Administrative           01SCSME021
               PDAT                     95PDSME02 1
               Promise Fellows          99APSME020
               Disability               97DSCME02 1

               We conducted our audit in accordance with Government Auditing Standards issued by the
               Comptroller General of the United States.

                COMPLIANCE

                Compliance with applicable laws, regulations, and the provisions of the awards is the
                responsibility of the Commission's management. As part of obtaining reasonable
                assurance about whether the costs claimed are allowable, allocable and reasonable, we
                performed tests of compliance with certain provisions of laws, regulations, and terms and
                conditions of the awards. However, our objective was not to provide an opinion on
overall compliance with such provisions. Accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed the following instances of
noncompliance, which are required to be reported under Government Auditing
Standards.

1. The Commission did not submit Financial Status Reports (FSRs) for the
Administrative and Program Development and Training grants on a timely basis as
required by the grant provisions.

The grant provisions required the Commission to submit FSRs to the Corporation within
30 days after the end of each quarter. Our test showed that the Commission was late from
two to 108 days with its submissions, or eighteen days on the average.

This condition was caused by the State Planning Office, which provides financial
management services to the Commission. This office did not having adequate staffing to
gather the information necessary to prepare the FSRs in a timely manner.

Recommendation

We recommend that the Commission work with the State Planning Office to ensure that
adequate staffing is available to prepare and submit the FSRs on a timely basis.

2. The subgrantees were often late in their submission of FSRs and Quarterly Progress
Reports (QPRs) to the grantee. Only one of the four subgrantees consistently submitted
reports on time. Our test showed that ten of the twenty-nine reports submitted by
Wolfe's Neck Farm Foundation were late from three to seventy-two days, or four days on
average; thirteen of the twenty-four submitted by Coastal Enterprises, Inc. were late from
one to 117 days, or fifteen days on the average; and ten of the twenty-four submitted by
the Maine Department of LaborIWorkforce Development Centers were late from four to
ninety-six days, or ten days on the average.

ArneriCorps Provision No. 16, entitled "Reporting Requirements" provides for the
submission of quarterly FSRs and QPRs. The Commission also established subgrantee
FSR and QPR due dates in order to provide the time necessary to prepare aggregate
Commission FSRs and QPRs and to meet the Corporation's due date schedule. We
compared the subgrantee due dates with subgrantee submission dates to arrive at the
results shown above.

Recommendation

We recommend that the Commission provide training and develop a procedure to remind
subgrantees that they must submit FSRs and QPRs on a timely basis.
3. The Maine Department of LaborIWorkforce Development Centers paid two of its
members living allowances that exceeded the authorized amounts under the AmeriCorps
program. The Corporation's share of the overpayments amounted to $206 for years 1998
and 1999, and $384 for years 2000 and 2001. The subgrantee could not explain how the
overpayments occurred. However, it appeared from our review that insufficient
monitoring of the living allowances paid by the subgrantee resulted in the overpayments.

Recommendation

We recommend that (1) the Commission establish oversight policies and procedures to
ensure that subgrantees comply with the ceiling limitations for AmeriCorps member
living allowances; and (2) the Corporation follow up with the Commission to determine
if questioned and unsupported amounts should be disallowed and recovered.

4.    In-kind contributions reported by the Maine Department of LaborIWorkforce
Development Centers for cost-matching purposes were not always reasonable or
verifiable. For example, we noted instances where excessive hourly rates were used and
other instances where lump sum amounts were shown without a breakdown of the
components.

This was caused by the subgrantee's failure to effectively monitor the quantity and
quality of the documentation submitted to support in-kind contributions. In addition, the
Commission has not provided sufficient guidance and monitoring of the documentation
provided by the subgrantee to support in-kind contributions.

AmeriCorps Provision No. 13, entitled "Matching Requirements", states in part, that the
value of grantee and third-party contributions of services and property will be determined
in accordance with applicable cost principles set forth in Office of Management and
Budget Circulars A-21, A-87, A-122, and the approved budget.

Since the Commission's required matching by the subgrantee exceeds that of the
Corporation's matching requirements, the lack of effective monitoring of in-kind
contributions has minimal effect on the Corporation's grants, and, as a result, there were
no questioned costs.

Recommendation

We recommend that the Commission provide guidance and future monitoring of
subgrantees to ensure that acceptable documentation is maintained to support in-kind
contributions.
INTERNAL CONTROLS

In planning and performing our audit of awards costs, as presented in Schedule 1 for the
period October 1, 1998, to September 30,2001, we considered the Commission's internal
controls. This was done to establish auditing procedures that would determine if the costs
claimed by the Commission were allowable, allocable and reasonable, and not to provide
assurance on the internal controls over financial reporting.

The Commission's management is responsible for establishing and maintaining internal
controls. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs on internal control policies and
procedures. The objective of internal controls is to provide management with reasonable,
but not absolute, assurance that assets are safeguarded against loss from unauthorized use
or disposition, that transactions are executed in accordance with management's
authorization, and that transactions are recorded properly to permit the preparation of
financial reports in accordance with generally accepted accounting principles of the
United States of America. Because of inherent limitations in any internal controls, errors
or irregularities may nevertheless occur and not be detected. Also, projection of any
evaluation of the internal controls to future periods is subject to the risk that procedures
may become inadequate because of changes in conditions, or because the effectiveness of
the design and operation of policies and procedures may deteriorate. We consider the
following matters to be material.

5. The State Planning Office provides financial management services to the Commission
utilizing the Maine Financial and Administrative Information System (MFASIS). While
MFASIS has the capability to account for grant funds by specific grant and object codes,
we found that the State Planning Office did not adequately account for the Corporation
and Commission's shares of expenditures. The following deficiencies were noted in the
State Planning Office's accounting for Corporation and Commission expenditures:

        1.     Financial Status Report (FSR) amounts reported to the Corporation for
               National and Community Service for Corporation and Commission's
               shares of outlays were not reconciled to the general ledger or other
               supporting documents.
        2.     Grant drawdowns were not reconciled to the corresponding incurred costs
               in the general ledger.
        3.     Controls were not in place to ensure the Commission's cost match
               requirements were met.
        4.     Personnel costs used for matching purposes were not always supported by
               attendance records, such as time sheets or alternative methods provided for
               by OMB Circular A-87.
        5.     Expenses were often moved between grants by adjusting journal entries.
               On several occasions the wrong grant was charged and adjusting entries
               had not been made to correct the errors.
       6.      Expenses for the Commission's share of outlays were sometimes charged
               to grant funds.
       7.      MFASIS accumulates expenditures by grant and object codes in greater
               detail than that of the budget line items; however, it does not summarize
               the expenditures by budget line item.
       8.      FSRs were not submitted timely.

We could not identify all of the causes for the deficiencies. We acknowledge that the
State Planning Office has requested the assistance of the State Auditor in resolving these
deficiencies and improving the system's internal controls. We were also told that the
State is implementing a new timekeeping system. This system is able to record hours and
labor costs by cost objective.

Recommendation

We recommend that the Commission work with the State Planning Office to develop
procedures and processes to address the internal control weaknesses to ensure adequate
and proper financial management of the Commission's grant programs.

6. The State Planning Office (SPO) had not performed a reconciliation between Financial
Status Report (FSRs) amounts, actual expenses, and drawdowns for the Administrative,
Program Development and Training, and Disability grants. These reconciliations could not
be provided, even though we were informed that the drawdowns made by the Commission
were done on a cash basis, i.e., drawdowns were made after the expenses had been
incurred. We therefore concluded that the SPO did not adequately account for specific
grant expenditures in relation to amounts reported on FSRs and drawdowns made on
specific grants.

       For example, under Administrative grant OISCSME021, the SPO made
        drawdowns totaling $165,329.66 from the inception of the grant period
        to September 30, 2001; had reported FSR amounts from the inception to
        September 30, 2001, of $160,139.00; and had general ledger expenses of
        $102,215,from the inception to September 30, 2001. Also, to illustrate
        the dfficulty in accounting for funds by speczfic grant numbers, the SPO
        in its September 19, 2001, drawdown of $78,056.85 under
        01SCSME021, included expenses for three different grants ($2 7,664.13
       for OlSCSME021; $35,719.58 for Administrative grant 94SCSME021;
        and, $14,673.14 for Disability grant 9 7DSCME021). We noted that the
        drawdown for 94SCSME021 is dated September 19, 2001, for a grant
        that ended December 31, 2000.             The final closeout FSR for
        94SCSME021 dated March 8, 2002, reported that the total Federal
        outlays of $991,908 had been disbursed as of December 31, 2000. The
        SPO prepared a journal voucher adjusting entry accepted on March 12,
        2002, that moved the $35,719.58 from 94SCSME021 back to
       OlSCSME021. A journal voucher adjusting entry dated May 3, 2002,
       moved the $14,673.14 from 97DSCME021 back to 01SCSME021.

During our audit period, October 1, 1998, to September 30, 2001, the drawdowns for the
Administrative, PDAT and Disability grants exceeded total actual expenditures by
$106,743, while the expenditures reported on the FSRs for the same grants exceeded total
actual expenditures in the general ledger by $49,194.

The AmeriCorps Provision, entitled "Financial Management Provisions", requires that
the grantee maintain a financial management system that includes ... sufficient internal
                                                                    "


controls."

Recommendation

We recommend that the Commission work with the State Planning Office to (1) develop
a process for reconciling amounts drawn down to corresponding amounts in the
Commission's records and the FSRs, and (2) resubmit FSRs for the Administrative,
PDAT and Disability grants to reflect actual expenditures incurred on each of these grants
to date.

7. The Commission did not have adequate controls to ensure that its share of matching
costs were properly monitored, fully documented, and accurately reported. Our audit of
the documentation for matching costs for Administrative Grant Nos. 94SCSME021 and
01 SCSME021 identified the following:



     Cost Category                   Amount         Reason
     Personnel Costs                 $29,256        No supporting documentation andlor
                                                    an informal allocation process that
                                                    was not in accordance with OMB
                                                    Circular A-87.

     Office Consumables                             No supporting documentation

     Match Shortfall                                No supporting documentation

01 SCSME021

     Personnel Costs                                No supporting documentation and/or
                                                    an informal allocation process that
                                                    was not in accordance with OMB
                                                    Circular A-87.

      Total                         $208,446
For grant No. 94SCSME021, the Commission was required to provide matching costs
totaling $343,089 based on grant funds budgeted for periods between November 1, 1997,
and March 31, 2000. The Commission provided us with $197,355 in matching costs
documentation, leaving a match shortfall of $145,734.

We question $62,712 in unsupported costs and have classified the remaining $145,734 as
shortfall in the Commission's required matching costs for the Administrative grant.

Recommendation

We recommend that (1) the Commission develop the internal controls necessary to ensure
that its share of matching costs are properly monitored, fully documented and accurately
reported; and (2) the Corporation follow up with the Commission to determine if
questioned and unsupported amounts should be disallowed and recovered.

8. The Commission received reimbursement of $27,730 from other States, individuals
and non-profit organizations for their share of training costs paid for by the Commission
using Program Development and Training (PDAT) funds. These reimbursements were
not credited to the PDAT grant, as required by OMB Circular A-87, Attachment A. In
addition, it was not possible to determine whether the reimbursements were used for
PDAT activities.

This condition was caused by the Commission not crediting the reimbursements received
from others to the PDAT grant and then commingling the reimbursements with
Commission funds received from other sources in the same "014 Special Revenue
Account". Testing of subsequent expenditures from the special revenue account could
not determine if the PDAT reimbursements were spent by the Commission on PDAT
activities.

We are questioning the $27,730 of PDAT expenditures that were reimbursed by others.

Recommendation

We recommend that (1) the Commission take action to ensure that future reimbursements
for PDAT training are credited back to the PDAT grant rather than be recorded in a
special revenue account; and (2) the Corporation follow up with the Commission to
determine if questioned and unsupported amounts should be disallowed and recovered.

9. The State Planning Office was unable to provide documentation supporting five of the
nineteen transactions selected for testing under the PDAT grant. These five transactions
totaling $3,655, incurred under the 1998-99 grant, were for:
                      Travel
                      Conferences
                      Printingminding
                      Total

The Commission's staff (State Planning Office) was unable to locate either the original
supporting documentation or retrieve copies of the documentation from the State Finance
Office. Therefore, we are questioning the entire $3,655 as unsupported costs.

Recommendation

We recommend that (1) the Commission provide documentation supporting the five
transactions, and (2) the Corporation follow up with the Commission to determine if
questioned and unsupported amounts should be disallowed and recovered.

10. The Administrative, Program Development and Training, and Disability grants were
charged $35,024 of overhead-type costs that were to be used as matching costs for the
Administrative Grant. According to a State Planning Office official, overhead-type costs
are automatically charged to the grants by their financial management system. These
costs should be taken out of the grants by adjusting journal entries.

The allocation of overhead-type costs to the Administrative, Program Development and
Training, and Disability grants is attributed to internal control weaknesses in the State
Planning Office program involving staff training, supervision, and oversight.

We are questioning the $35,024 of overhead costs charged to these grants that should
have been allocated to the Administrative grant as matching costs.

Recommendation

We recommend that the Commission work with the State Planning Office to ensure that
future overhead costs are properly allocated to the Administrative grant as matching
costs. We also recommend that the $35,024 in overhead costs be removed from these
grants as allowable cost and transferred to the Administrative grant as matching costs.

11. Based on our sample of direct costs charged to the two Administrative grants
(94SCSME021 and 01SCSME021), we identified $3 1,922 in expenses that had been
incorrectly charged to the grants in the following categories:



     Cost Category                   Amount                Reason
     Telephone                       $ 1,343        Budgeted as matching cost
     AmeriCorps Expenses              15,000        Not allocable to Administrative grant
     Personnel Costs                  11,628        Budgeted as matching cost
        Temporary Services                            Duplicate Adjustment
          Subtotal




        Personnel Costs                $ 5,381        Budgeted as matching cost
        PrintingIBinding                 2,879        Budgeted as matching cost
           Subtotal                    $ 8,260

Total

The State Planning Office attributed the misallocation of these costs to the Administrative
grants to coding errors. However, we believe that the root cause is due to internal control
weaknesses related to staff training, supervision and oversight.

We are questioning $3 1,922 charged to the Administrative grants.

Recommendation

We recommend that (1) the Commission work with the State Planning Office to ensure
that these type of costs are properly charged to the correct funding source and to transfer
those costs that are properly allocable to its matching share or to AmeriCorps grants, and
(2) the Corporation follow up with the Commission to determine if questioned and
unsupported amounts should be disallowed and recovered.

12. Subgrantees did not maintain documentation as required by ArneriCorps provisions.

          a. The Maine Department of LaborIWorkforce Development Centers did not
             maintain eligibility documentation to support all of its program participants.
             Files were not complete for two of forty-seven participants we reviewed. This
             condition was caused by the subgrantee's failure to follow standard
             procedures for obtaining and verifying a member's eligibility for the
             AmeriCorps program before allowing the member to serve.

             AmeriCorps Provision No. 6, entit1ed"Member Eligibility, Recruitment and
             Selection", requires that the grantee maintain verifiable records that document
             each member's eligibility to serve.
             Without complete member files, the Commission cannot verify that eligibility
             requirements are being met. In order to ensure that grant funds are used for
             the purposes intended, it is important to make certain that the intended target
             group is receiving the funding. Due to the inability to validate member
             eligibility in the above cases, we questioned the living allowances and related
             benefits of $392 (Program Year 2000-01) for the two members whose
   eligibility documentation could not be located. Because the members did not
   complete their member contracts, they did not receive an Education Award.

b. Some member files of Coastal Enterprises, Inc. did not contain required
   contracts and position descriptions. Of the sixteen files reviewed, two were
   missing contracts and three were missing position descriptions. This
   condition was caused because the subgrantee did not fully understand program
   requirements.

   AmeriCorps Provision No. 7, entitled "Training Supervision and Support",
   states: The Grantee must require that members sign contracts that stipulate the
   following:

           0   the minimum number of service hours and other requirements (as
               developed by the Program) necessary to be eligible for an
               educational award;
           0   acceptable conduct;
           0   prohibited activities;
           0   requirements under the Drug-Free Workplace Act;
           0   suspension and termination rules;
           0   the specific circumstances under which a member may be released
               for cause;
           0   the position description;
           0   grievance procedures."

c. Some of the files of all subgrantees reviewed did not contain mid-term or end-
   of-term evaluations or did not include supervisors' signatures. The following
   chart presents the results of our audit test of the evaluations.

                                              Number           Number
                               Form           Tested        MissingIIncomplete
   Wolfe's Neck Farm         Mid-Term          13                  13
   Foundation                End-of-Term       13                  13

   Coastal Enterprises, Inc. End of-Term        16                   2

   Jobs for Maine's          Mid-Term           16
   Graduates                 End-of-Term        16

   Maine Department of       Mid-Term           47
   LaborIWorkforce           End-of-Term        47
   Development Centers
           For the Wolfe's Neck Farm Foundation, we found that mid-term and end-of-
           term evaluations were not prepared for any of its members during program
           year 1998-1999, or for reduced part-time members during program year
           l999/2OOO. During program year 2000-2001, evaluations were prepared by
           the members, but not signed by site supervisors.

           AmeriCorps Provision No. 7, entitled "Training Supervision and Support",
           requires written mid-term and end-of-term evaluations of each member.

           Evaluations provide feedback to members regarding the quality and quantity
           of their work. They provide supervisors with an opportunity to give guidance,
           correct misunderstandings, offer praise, share experiences, and increase
           confidence.

Recommendation

We recommend that (1) the Commission reemphasize to its subgrantees the need to
adhere to the documentation requirements of AmeriCorps provisions; and (2) the
Corporation follow up with the Commission to determine if questioned and unsupported
amounts should be disallowed and recovered.

13. Two subgrantees charged administrative costs in excess of grant provisions against
their grants. The subgrantees were allowed to charge a fixed 5 percent of the total of their
Commission funds expended; however, the following subgrantees overcharged their
grants by a total of $1,992 during program years 1998 through 2001.

                                                                 Program Year


Wolfe's Neck Farm Foundation
Coastal Enterprises, Inc.
  Total

The overbilling for administrative costs was caused by the subgrantees' failure to
determine that the amounts billed did not exceed the 5 percent limit on the final expense
report.

The AmeriCorps Provision, entitled "Administrative Costs", states that "If approved on a
case-by-case basis by the Corporation, the grantee may charge, for administrative cost, a
fixed 5 percent of the total of the Corporation funds expended."
Recommendation

We recommend that (1) the Commission reemphasize to subgrantees the need to properly
monitor their application of the fixed 5 percent rate in charging for administrative costs,
and (2) the Corporation follow up with the Commission to determine if questioned and
unsupported amounts should be disallowed and recovered.

14. Two subgrantees charged costs against their Commission grants that were either
unallowable or unsupported by proper documentation. As a result, a total of $4,814 in
costs charged against Commission grants by the following subgrantees is questioned:

                                                                   Grant Years

                                                         1998-99    1999-00 2000-01
Wolfe's Neck Farm Foundation
       Costs Incurred After End of Grant Period            $189      $2,321      $287

Jobs for Maine's Graduates
        Staff Benefits, Travel, and Supplies
        Salary Costs
Total

The AmeriCorps Provision, entitled "Responsibility For Administering the Grant",
requires the Commission to act in a judicious and reasonable manner in expending grant
funds.

Wolfe's Neck Farm Foundation incurred and charged a total of $2,797 in costs against its
Commission grants (94ASCME020 and 00ASFME020) after the expiration dates. The
charges included costs for training, education, supplies, equipment, transportation and
administration.

Jobs for Maine's Graduates charged a total of $2,017 against its Commission grant
(99ASHME020) without supporting documentation. The charges included costs for
salaries, benefits, and miscellaneous items.

Recommendation

We recommend that (1) the Commission reemphasize to subgrantees the requirement that
only costs incurred during the grant period and supported by appropriate documentation
be charged to the AmeriCorps grants, and (2) the Corporation follow up with the
Commission to determine if questioned and unsupported amounts should be disallowed
and recovered.
                                    Follow-up on
                                Pre-Audit Survey of the
                              OIG Audit Report No. 01-19


Recommendation No. 1

The Commission should develop and implement control procedures to restrict the level of
access authority granted to the different users of WBRS, as appropriate.

Current Status

The current level of control procedures to restrict the level of access authority in WBRS
is considered appropriate. We consider this recommendation closed.

Recommendation No. 2

The Commission should enforce procedures to ensure compliance in the preparation and
timely submission of FSRs. In addition, the Commission should enforce its policy
regarding e-mailing subgrantees when their FSRs are late.

Current Status

While the Commission has taken steps to improve compliance in the preparation and
timely submission of FSRs, our current audit does have a finding regarding the timely
submission of FSRs by subgrantees. However, it was noted that the majority of the
untimely filings were in the earlier years of our audit period. This recommendation is
still open.

Recommendation No. 3

The Commission should develop and implement procedures to test both fiscal and
programmatic selected transactions during site visits on an annual basis (Member
eligibility, prohibited activities, allowability of costs). The number of files selected for
transaction testing should be increased to provide a more representative sample of the
population, and the items selected for review should be specifically identified in the site
vlsit documentation.

Current Status

The Commission has developed and implemented a risk-based monitoring strategy that
governs the planning, performance, and documentation of site visits.         This
recommendation is considered closed.
Recommendation No. 4

The Commission should establish an internal review procedure to ensure site visit
documentation is comprehensive, complete, and retained in subgrantee files for future
reference.

Current Status

The Commission has taken steps to ensure that site visit documentation is
comprehensive, complete and retained in subgrantee files. We consider this
recommendation closed.

Recommendation No. 5

The Commission should develop and implement written procedures to verify the
accuracy of reported subgrantee performance measures and program results during site
visits. Specific items verified should be identified in the site visit documents included in
subgrantee files.

Current Status

The Corporation, in its Proposed Management Decision of August 10, 2001, stated that
the verification of results may come from and be obtained in a variety of ways. These
include feedback from stakeholders, surveys of service grantees, or as a part of formal or
informal evaluation efforts. The Corporation, on September 26, 2001, finalized the
Management Decision by stating that the issue for this finding had been addressed in the
Proposed Management Decision. We consider this recommendation closed.



Rockville, Maryland
March 28,2003
                                                                Schedule 1


                 Maine Commission for Community Service
                  Consolidated Schedule of Award Costs

          Corporation for National and Community Service Awards


                                Approved      Claimed      Questioned
Award Number      Program        Budget        Costs         Costs      Reference

94ASCME020     AmeriCorps       $3,486,802    $2,203,877       $4,593   Exhibit A

00ASCME020     AmeriCorps        1,837,285      738,666          776    Exhibit B

00ASFME020     AmeriCorps          980,899      358,120          402    Exhibit C

99ASHME020     AmeriCorps-         90 1,492     595,463         2,017   Exhibit D
               Governor's
               Initiative

               Administrative      343,089      273,611       166,873    Exhibit E

               Administrative      20 1,249     160,139       162,190    Exhibit F

               PDAT                553,000      430,046       119,344   Exhibit G

               Disability           70,448       54,613        14,308   Exhibit H

               Promise             243,741      210,836           -0-
               Fellows

               Promise             125,000
               Fellows

               America Reads       148,750

               Make A                2,000
               Difference

Total                           $8,893,755
                    Maine Commission for Community Service
                   Notes to Consolidated Schedule of Award Costs

Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps, Administration, Program Development and
Training, Disability, and Promise Fellows grants awarded to the Maine Commission for
Community Service by the Corporation for National and Community Service for the
period from October 1, 1998, to September 30,2001 (periods vary by individual grant).

The Commission awards its AmeriCorps grant funds to numerous subgrantees that
administer the AmeriCorps program and report financial and programmatic results to the
Commission.

Summary of Significant Accounting Policies

Basis of Accounting

The accompanying Schedule has been prepared to comply with the Provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedule has been prepared from the reports submitted by the
Commission to the Corporation. The basis of accounting used in preparation of these
reports differs slightly from accounting principles generally accepted in the United States
of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedule of Award Costs include the cost of equipment purchased during
the period rather than a provision for depreciation. The equipment acquired is owned by
the Commission while used in the program for which it was purchased or in other future
authorized programs. However, the Corporation has reversionary interest in the
equipment. Its disposition, as well as the ownership of any proceeds, therefore, is subject
to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
Questioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations or specific conditions of the awards, or those
costs which require additional support by the grantee or which require interpretation of
allowability by the Corporation.
                                                                                Exhibit A
                              Schedule of Award Costs
                      Maine Commission for Community Service
                      Award Number 94ASCME020 (ArneriCorps)


                                Approved           Claimed        Questioned
                                 Budget             Costs           Costs       Reference
Maine Department of
LaborIWorkforce
Development Centers                                                                Note 1

Coastal Enterprises, Inc.                                                          Note 2

Wolfe's Neck Farm
Foundation                                                                         Note 3

Subtotal

Others                                                                             Note 4

Total


Notes

    1. The questioned amount represents living allowances paid in excess of the amount
       authorized by the grant. The overpayment consists of living allowance ($182),
       FICA ($14), and administrative costs ($10).
    2. The questioned costs represent administrative costs charged against the grant
       during the 2000-01 program year in excess of the 5 percent total cost ceiling.
    3. The questioned amount represents $2,510 in costs incurred and charged against
       the grant after its expiration date and $922 in administrative costs charged against
       the grant during the 1998-99 program year in excess of the 5 percent total cost
       ceiling.
    4. During the period covered by our audit, the Commission had up to eight different
       subgrantees. Therefore, we used a sampling approach to test the claimed costs.
       The claimed costs reported include costs claimed by subgrantees that were not
       tested as part of this audit.
                                                                             Exhibit B


                              Schedule of Award Costs
                      Maine Commission for Community Service
                      Award Number 00ASCME020 (ArneriCorps)



                                 Approved         Claimed      Questioned
                                  Budget           Costs         Costs    Reference
Maine Department of
LaborIWorkforce
Development Centers                $1,333,953       $536,426         $776       Note 1

Coastal Enterprises, Inc.             592,332        202,240           -0-

Others

Total


Note

    1. The questioned amount is due to lack of eligibility documentation and an
       overpayment. The total eligibility cost questioned consists of $392 in costs
       claimed for two ArneriCorps members in which the member files were missing
       key eligibility documentation. The members dropped out of the program early.
       The $384 overpayment consists of living allowances paid in excess of the amount
       authorized by the grant. This overpayment consists of the living allowances
       ($339), administrative costs ($26) and FICA ($19).
                                                                             Exhibit C


                            Schedule of Award Costs
                    Maine Commission for Community Service
                    Award Number 00ASFME020 (AmeriCorps)



                                 Approved          Claimed      Questioned
                                  Budget            Costs         Costs
                                                                             Reference

Wolfe's Neck Farm
Foundation                                                         $402          Note 1

Others                                                              -0-          Note 2

Total




   1. The questioned amount consists of (a) $287 in costs incurred and charged against
      the grant after its expiration date, and (b) $1 15 in administrative costs charged
      during the 2000-01 program year in excess of the 5 percent total cost ceiling.

   2. During the period covered by our audit, the Commission had up to eight different
      subgrantees. Therefore, we used a sampling approach to test the claimed costs.
      The claimed costs reported include costs claimed by subgrantees that were not
      tested as a part of this audit.
                                                                           Exhibit D


                            Schedule of Award Costs
                     Maine Commission for Community Service
                          Award Number 99ASHME020
                        (AmeriCorps-Governor's Initiative)



                                Approved          Claimed      Questioned
                                 Budget            Costs         Costs    Reference


Jobs for Maine's Graduates      $90 1,492        $595,463        $2.0 17       Note 1


Note

   I . The questioned costs represent two instances ($1,827 and $190) in which salaries,
       benefits and miscellaneous costs were claimed and reported on the October 2000
       Financial Status Report without sufficient supporting documentation.
                                                                                  Exhibit E


                             Schedule of Award Costs
                      Maine Commission for Community Service
                     Award Number 94SCSME021 (Administrative)


                                                                             Reference

Approved Budget

Claimed Costs

Questioned Costs
   Difference Between FSR and
      General Ledger                           ($49,686)                     Note 1
   Ineligible Costs for Reimbursement            37,368                      Note 2
   Unsupported Costs for Match                   33,456                      Note 3
   Match Shortfall                              145,734                      Note 4
Total Questioned Costs


Notes


   1. The questioned amount represents the amount understated on the Financial Status
      Reports when compared to the general ledger.

        The questioned amount consists of erroneous charges against the Administrative
        grant for (a) $1,343 in telephone costs budgeted as a State match item; (b)
        $1 1,628 in payroll costs for a receptionist that was budgeted as a State match
        item; (c) a $15,000 cooperative agreement payment to the University of Southern
        Maine that should have been paid from an ArneriCorps grant; (d) $4,309 to be
        returned to the grant which had improperly been taken out of the grant twice
        through adjustments; and (e) $13,706 in overhead-type costs that were reported
        and claimed as administrative expenses against this grant, but had been budgeted
        as a State match item. This amount also includes $769 in costs identified in the
        Commission's financial management system as "No Report Category" costs
        rather than charges to a specific grant. We assigned these costs to this grant, since
        the costs were either Administrative, PDAT or Disability type expenses.
3. The questioned amount consists of $29,256 in personnel costs and $4,200 in
   office consumable costs used for matching purposes for which supporting
   documentation was not provided.

4. The questioned amount is for the period November 1, 1997, to March 3 1, 2000,
   during which $343,089 in cost matching was required; however, the Commission
   provided documentation totaling $197,355. Accordingly, the difference of
   $145,734 is questioned.
                                                                             Exhibit F

                           Schedule of Award Costs
                    Maine Commission for Community Service
                   Award Number 01SCSME021 (Administrative)

                                                                        Reference
Approved Budget                                             $20 1,249

Claimed Costs

Questioned Costs
   Difference Between FSR and
      General Ledger                         $57,924                    Note 1
   Ineligible Costs for Reimbursement         11,895                    Note 2
   Unsupported Costs for Match                29,256                    Note 3
   Excess Drawdown                            63,115                    Note 4
Total Questioned Costs                                      $162,190


Notes

   1. The questioned amount represents the amount overstated on the Financial Status
      Reports when compared to the general ledger.

   2. The questioned amount consists of erroneous charges against the Administrative
      grant for (a) $5,381 in receptionist payroll costs budgeted as a State match item,
      (b) $2,879 in annual report printing costs budgeted as a State match item, and (c)
      $3,635 in overhead-type costs that were reported and claimed as administrative
      expenses against the grant, but had been budgeted as matching costs for the grant.

   3. The questioned amount represents costs for which supporting documentation was
      not provided.

   4. The questioned amount represents the excess of amounts, over actual expenses
      that were drawn down by the Commission.
                                                                         Exhibit G



                            Schedule of Award Costs
                    Maine Commission for Community Service
                          Award Number 95PDSME021
                    Program Development and Training (PDAT)

                                                                     Reference

Approved Budget

Claimed Costs

Questioned Costs
   Difference Between FSR and
     General Ledger                       $16,530                    Note 1
   Excess Drawdown                         55,430                    Note 2
   Unsupported Expenditures                27,730                    Note 3
   Unsupported Costs                        3,655                    Note 4
   Ineligible Costs for Reimbursement      15,999                    Note 5
Total Questioned Costs


Notes


   1. The questioned amount represents the amount overstated on the Financial Status
      Reports when compared to the general ledger.

   2. The questioned amount represents the excess of amounts, over actual expenses
      that were drawn down by the Commission.

   3. The questioned amount represents reimbursements received from other States,
      individuals, and non-profit organizations for training costs paid from the
      Commission's PDAT grant funds. These funds were commingled in an account
      with receipts intended for other purposes and were not traceable to PDAT
      activities.

   4. The questioned amount represents costs for program year 1998-99 for which
      supporting documentation could not be located. The amount consists of travel
      ($1,733), conference charges ($450), and printingibinding ($1,472).
5. The questioned amount represents overhead-type costs reported and claimed as
   PDAT expenses, but which had been budgeted as a State match item for the
   Administrative grant.
                                                                           Exhibit H


                             Schedule of Award Costs
                      Maine Commission for Community Service
                      Award Number 97DSCME021 (Disability)


                                                                       Reference

Approved Budget                                             $70,448

Claimed Costs

Questioned Costs
   Difference Between FSR and
     the General Ledger                     $24,426                    Note 1
   Drawdowns less than
     Booked Expenditures                   (1 1,802)                   Note 2
   Ineligible Costs for Reimbursement         1,684                    Note 3
Total Questioned Costs                                      $14,308


Notes


   1. The questioned amount represents the amount overstated on the Financial Status
      Reports when compared to the general ledger.

   2. This amount represents incurred costs that had not been drawn down from this
        grant. In as much as the costs are commingled with PDAT and Administrative
        costs, some of the Disability costs could have been reported under the other
        grants.

   3. The questioned amount represents overhead-type costs reported and claimed as
      Disability program expenses against this grant, but which had been budgeted as a
      State match item for the Administrative grant.
                   Appendix A


Response of Maine Commission for Community Service
June 25,2003

J. Russell George
Inspector General
Corporation for National and Community Service
1201 New York Ave., NW Suite 830
Washington DC 20525

Dear Mr. George:

Enclosed is our response to the draft OIG Audit Report titled "Incurred-Cost Audit of Grants
Awarded to the Maine Commission for Community Service" Audit Report No. 03-06 dated
March 28, 2003.

In reviewing the audit findings and questioned costs for the awards during the audit period, we
found several of the recommendations to be of particular value to the State Planning Office
because they will help improve our financial management of not only awards from the
Corporation of National Service, but also of other federal awards managed by this office. The
State Planning Office would also like to thank the auditors for their professionalism during the
audit. The State Planning Office's management of federal awards will be enhanced because of
their work.

We are pleased to find that oversight of subgranted funds is affirmed as one of our strengths. As
reported in the audit, questioned costs in this category amounted to only 0.01% ($7,788) of the
$7.4 million awarded to subgrantees. In part, this is attributable to the Web-Based Reporting
System which has transformed grant management and oversight for both State Commissions and
subgrantees.

As noted on page four of the audit report, the Maine Commission for Community Service
operates as a division of the Maine State Planning Office in Augusta. The Management and
Support unit of State Planning handles the accounting and financial operations for the entire
agency, including the Commission for Community Service. The responses in this letter represent
the joint views of the Director of Finance for the State Planning Office and the Director of the
Maine Commission for Community Service.

Compliance Findings:
0 Finding 1. The Commission did not submit Financial Status Reports (FSRs) for the
Administrative and Program Development and Training grants on a timely basis as required by
the grant provisions.
                           < * , I   8   ,   -   1 ,   .   ,
                                                                                                   1
Response to #1: This finding is for the Administrative, PDAT and Disability grants. The State
Planning Office agrees with the finding and corrective action has been taken to ensure that FSR's
are filed timely.

    Finding 2. The subgrantees were often late in their submission of FSRs and Quarterly
Progress Reports to the grantee.

Response to #2: Reporting of Financial Status Reports by the Sub Grantee's had been a problem
during the first year of the audit period, however reviewing WBRS for filing of AmeriCorps
reports we find that since June 30, 1999 -- the first report on WBRS -- no report has been late.

With regard to Quarterly Progress Reports, the Commission had recognized the problem and
begun to take action before the audit was conducted; however the changes occurred after the
audit period. The Commission provided additional technical assistance to subgrantees regarding
how best to compile and report analysis of their accomplishment and evaluation and performance
data. The effect of this can be seen in the timeliness of 2002 reports due: the range of late
submissions is down to between one day and 15 days with most programs showing significant
improvement in timeliness. For example, Coastal Enterprises went from an average 15 days late
to an average 8 days; Dept of Labor went from an average of ten days late to having every report
only 1 day late; and the new program which was not operating during the audit period (Maine
Response Team) submitted all but three reports on time and the late reports were submitted on
average 2 days late.

The Commission continues to be dissatisfied with the compliance rates of subgrantees,
particularly because the Web Based Reporting System (WBRS) has feature that facilitate
reporting. The Commission board's task force on Grant Selection and Performance is studying
the issue of compliance along with other performance expectations with the goal of having a
systematic way of factoring those facets into continuation funding decisions. The task force's
work will be completed by October 2003.

    Finding 3: The Maine Dept. of LaborIWorkforce Development Centers paid two of its
Members living allowances that exceeded the authorized amounts under the AmeriCorps
program [by a total of $5901.

Response to #3: Both the subgrantee and the Commission concur that the overpayments
occurred. The Commission will review its policies on attendance of subgrantee staff at training
on administration of these grants. It may be that the practice of having only the project and
program directors attend will be altered to require attendance of the sponsoring organizations
fiscal staff. At present, they are strongly encouraged but not required to attend after the initial
year of operation. Thus, new hires in fiscal departments may not be getting full orientation in
subsequent years.

   Finding 4: In-kind contributions reported by the Maine Dept. of LaborIWorkforce
Development Centers for cost-matching purposes were not always reasonable or verifiable.
Response to #4: The Commission was concerned about this finding because all documentation
previously reviewed during monitoring visits was thorough and detailed. In pursuing the issue
with the subgrantee, two things emerged. First, the subgrantee did not comprehend the
implications of a finding that did not have questioned costs and, therefore, did not pull out stored
records for the auditors. Second, when pressed by the Commission, the subgrantee provided
documentation that included a fax dated June 13,2000 and transmitted on letterhead of the donor
with the value of professional services stated clearly and in detail. They also produced an in-
kind contribution form date stamped July 20,2000 with proper detail to support the project
match.

To ensure the Commission's opinion of the subgrantees records is well founded, the Commission
has also instituted a procedure for one year that requires the program to provide documentation
for in-kind match amounts randomly selected from the WBRS Quarterly Income Reports.
Documentation provided for the quarters so far is complete, meets standards, and matches the
value reported on income and expense statements.

Internal Controls:
     Finding 5. The State Planning Office provided financial management services to the
Commission using the Maine Financial and Administrative Information System (MFASIS).
While MFASIS has the capability to account for grant funds by specific grant and object codes,
we found the State Planning Office did not adequately account for the Corporation and
Commission's shares of expenditures.

Response to #5. The State Planning Office is working with the Department of Audit and the
State's Controllers Office to develop written internal control policies, and has taken steps to
address the weaknesses discovered by the auditors. The steps taken to date include removing the
business manager who was responsible for the grants financial management and assigning the
duties to a Staff Accountant who has a proven record of managing federal grants. She recently
over saw the audit of another federal program managed by the State Planning Office and no
finding or questioned costs was found. The Controller's Office notified State Planning that a
final draft of internal control policies will be completed by June 27,2003, making it possible to
finalize and implement these by September 1,2003.

    Finding 6. The State Planning Office (SPO) had not performed a reconciliation between
Financial Status Report (FSRs) amounts, actual expenses, and draw downs for the
Administrative, Program Development and Training, and Disability grants. These
reconciliations could not be provided, even though we were informed that the draw downs made
by the Commission [SPO] were done on a cash basis.. ..

Response to #6. A written policy and procedure is being developed for reconciling amounts
drawn to corresponding amounts in the commission records and the financial status reports. The
procedure will be used to resubmit all FSR's for the Administrative, PDAT and Disability
awards from the beginning of the audit period to the award end date of through the current period
which ever is later.
0   Finding 7. The Commission did not have adequate controls to ensure that its share of
matching costs were properly monitored, fully documented, and accurately reported.

Response to #7. There are several issues underlying this finding and all are being addressed.
First, however, it is noted that the Commission uses an in-kind donation form to record the
proper value of any goods, services, training space, or equipment that are contributed by partners
in support of Commission activities. Those invoices have been retrieved from the business
manager's files, organized and properly associated with the years for which they are match. Just
under $37,000 additional verifiable match was identified by doing this.

Second, it is acknowledged that the business manager supplying reports to the auditors did not
fully search the accounting system for recorded match. Whether it happened because of
miscommunication or inability to query the system correctly, no one can determine. Nearly
$40,000 additional match in properly recorded entries were identified in a query of the
accounting system that followed the audit.

A third contributing factor has historic roots. The State Planning Office does have a negotiated
indirect rate with its cognizant federal agency, the Dept. of Commerce. That rate has not been
used as match because the Commission was instructed by CNCS in 1994 that such an approach
was not allowed for the Administrative grant. Thus, for nearly 10 years, the Commission and
State Planning have attempted to document as direct costs those expenses which, in other federal
grants, are allocated through the indirect rate . Obviously, we have not succeeded. Through the
audit, State Planning/Commission staff learned that the historic information was not correct and
(to our relief) the negotiated indirect rates could be used. The Commission proposes to request
that the percentage for each year be used in place of the inadequate and informal allocation
process which the auditors found lacking. Doing this will not only put match claimed on much
more solid ground but it will also make treatment of the Commission grants consistent with State
Planning's treatment of other federal grants it administers. If accepted, $193,767 in additional
match would be then verifiable under accepted accounting practices.

The additional match documentation has been submitted to the Corporation for National and
Community Service for their review and consideration.

    Finding 8. The Commission received reimbursement of $27,730 from other States,
individuals and non-profit organizations for their share of training costs paid for by the
Commission using Program Development and Training (PDAT) funds.

Response to #8. This condition was brought on by the fact that we were trying not to co-mingle
federal and non federal funds. Due to miscommunications regarding the use of the matching
funds they were commingled with other Corporation matching funds. The State Planning Office
will review its policy on reimbursements and take appropriate action to prevent this type of issue
from reoccumng.

     Finding 9. The State Planning Office was unable to provide documentation supporting five
of the nineteen transactions selected for testing under the PDAT grant. These five transactions
totaling $3,655, incurred during 1998-99 grant were for [travel, conferences, printinghinding].
Response to #9. The request for this documentation was late in the audit and we discovered that
one box of records was lost during one of SPO's three moves. We were not able to locate the
documentation from archives prior to the deadline for submission to the auditors; however, we
are confident that we can provide acceptable supporting documentation during the resolution
process.

    Finding 10. The Administrative, Program Development and Training, and Disability grants
were charged $35,024 of overhead-type costs that were to be used as matching costs for the
Administrative Grant.

Response to #lo. We agree with this finding and steps and we already have charged the
matching account for the sta-cap costs.

    Finding 11. Based on our sample of direct costs charged to the two Administrative grants
(94SCSME02 1 and 01 SCSME02 I), we identified $3 1,922 in expenses that had been incorrectly
charged to the grants . . ..

Response to #11. The questioned costs in this finding are due to coding errors and the items
budgeted as match have been or will be corrected by moving cash in the amount of the
questioned cost to the account.

The $15,000 that was not allocable to the Administrative grant also is a coding error. We will
work with the Corporation during resolution to determine the best way to handle a correcting
entry.

The final adjustment is for Temporary Services and again we will work with the Corporation
during resolution to determine the best way to handle a correcting entry.

    Finding 12. Subgrantees did not maintain documentation as required by AmeriCorps
provisions.

Response to #12. The first item in the finding (documentation of eligibility) nearly always
relates to summer or seasonal positions. The Commission appreciates the challenges subgrantees
face in fielding summer teams of AmeriCorps members but we find ourselves continually at odds
with subgrantees over their methods of meeting enrollment targets and compliance with the 30-
day rule. During routine monitoring visits, the Commission has noted and cited programs for
nearly all the issues identified by auditors. The Commission's Grant Selection and Performance
Task Force (formed in November 2002) is including these matters in its study of how to factor
compliance into continuation and funding decisions. As noted earlier, that group is expected to
report recommendations to the full commission in early autumn.

     Finding 13. Two subgrantees charged administrative costs in excess of grant provisions
against their grants. The subgrantees were allowed to charge a fixed 5 percent of the total of
their Commission funds expended; however, [Wolfe's Neck Farm and Coastal Enterprises]
overcharged their grants by a total of $1,992 during the program years 1998 through 200 1.
Response to #13. There are two elements to this response. First concerns the action the
Commission took to provide quarterly feedback on key fiscal requirements to the subgrantees.
This spreadsheet includes a calculation of the administrative line and indicates whether it is
within the regulation 5% or not.

Second, we recognize that both subgrantees acknowledge over billing the grants and we will
work with the Corporation to resolve this.

0   Finding 14. Two subgrantees charged costs against their Commission grants that were either
unallowable or unsupported by proper documentation. As a result, a total of $4,814 in costs
charged against Commission grants by the ... subgrantees is questioned.

Response to #14. The Commission recognizes that Jobs for Maine's Graduates acknowledges
charging grants for which it does not have proper documentation to support the expense.

In the case of Teach Maine, we respectfully disagree with the elements of the finding and
support the subgrantees claim that was entitled to funds it claimed during the close out period.
One amount ($1,126 for administration) was incurred but not billed during the grant performance
period. The travel reimbursements to Members completing their service year during the close
out period were also proper because they were essential to the volunteer activities of the
Members. This practice of continuing to incur and pay Member-related expenses during the
closeout period, happened during a time when the Corporation's preferred way of closing out a
particular budget year and the associated AmeriCorps volunteers meant having members serve
after the grant period. All Members would complete service on time for the final budget and
performance reports to be submitted but, at that time, no cost extensions were not used (although
they are now). We have reviewed Teach Maine's documentation and will submit it to the
Corporation during resolution.

We appreciate the opportunity to respond to the draft Audit Report. If you have any questions,
please contact Maryalice Crofton, Director of the Maine Commission for Community Service at
(207) 287-893 1.


Sincerely,




Ralph A. Van Den Bossche
Director of Finance                                          /
                                                    Maryalic Crofton
                                                    Director
State Planning Office                               Maine Commission for Community Service
                         Appendix B


Response of the Corporation for National and Community Service
                                      Coraoration for      -
                                      NATIONAL &r
                                      COMMUNITY




To:

From:

Date:

Subj:          Response to OIG Draft Audit Report 03-06: Incurred Cost Audit of Grants
               Awarded to the Maine Commission for Community Service


We have reviewed the draft audit report of the grants to the Maine Commission. Due to the
limited timefiame for response, we have not analyzed documentation provided by the
Commission supporting the questioned costs nor reviewed the audit work papers. We will
respond to all findings and recommendations when the audit is issued and we have reviewed the
findings in detail. The Maine Commission has also provided an extensive response and is
working on corrective action as necessary.

We should also note that the Maine Commission is sending extensive back-up documentation to
the Corporation to address questioned costs related to the administrative grant. We will review
the supporting documentation during the audit resolution process. Based on our preliminary
discussions with the Maine Commission and its prompt corrective action and careful search and
retrieval of historical records, we anticipate that these costs will have adequate support and will
be allowed.




                            1201 New York Avenue, NW + Washington, DC 20525
                                  202-606-5000 * www.nationalservice.org
                            Senior Corps   + AmeriCorps + Learn and Serve America             The President's Call to ~ e G i c c
